filed
In The Supreme Court of the United States

AUG 0 6 2021

In re Ellis Keyes
On Petition for a Writ of Mandamus
To the United States Court of Appeals for the Sixth Circuit No. 20-6034
AND
UNITED STATES DISTRICT COURT EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION PIKEVILLE
CIVIL NO. 7:18-CV-23-KKC

PETITION FOR WRIT OF MANDAMUS

Ellis Keyes, Propria Persona
P 0 Box 1073
Whitesburg Kentucky 41858-1073
(606) 821~9815 elliskeves@vahoo.com

QUESTIONS PRESENTED

Under what authority is license to practice law IF not WE THE PEOPLE and does
the constitution prohibit the Judicial Branch from creating abridgments against the
right to vote and free and fair elections?
Are all entitled equal license to practice in the courts pursuant to equal protection?
1 Mandate

c

Does a State have standing to exclude Judiciary Candidates from Election in
violation of constitutional checks and balances, conflicts of interest and separation
of powers?
Shall it be policy to have open and honest government in conformance with the
Supreme Law and prohibition against NOBILITY ?
How can a Bill of Rights carry any weight in the face of a Despotic Government?
n
LIST OF PARTIES
Respondents are Letcher County Commonwealth Attorney Edison Banks,
represented by Adam P. Collins, ESQ., Collins & Collins & Conley P. S. C., P.O.
BOX 727, Hindman, Kentucky 41822 and The State of Kentucky Office of the
Attorney General, ATTN: Travis Mayo, Capitol Suite 118, 700 Capitol Avenue
Frankfort, KY 40601- 3449.
The constitutionality of a Statute of Kentucky is drawn into question.
//// iii
TABLE OF CONTENTS
QUESTION PRESENTED

i

PARTIES TO THE PROCEEDINGS

ii

TABLE OF CONTENTS

Iii

TABLE OF AUTHORITIES

VI

2 Mandate

PETITION FOR WRIT OF MANDAMUS

6

JUDICIAL ORDERS OPINIONS BELOW

6

CONSTITUTIONAL AND STATUTORY PROVISIONS JURISDICTION
6
STATEMENT OF THE CASE

8

THERE ARE NO OTHER JUDICIAL MEANS TO OBTAIN THE RELIEF APPLICANT
SEEKS
9
CONCLUSION

14

APPENDIX:
Order District Court Eastern District of Kentucky No. 7:18-23-KKC Filed JULY 8th,

2021

1

United States Court of Appeals for the Sixth Circuit No. 20-6034 Order, entered June
15, 2021

2

follows

United States Court of Appeals for the Sixth Circuit No. 18-5213 order of Sep’ 26
2018....... follows
Order District Court Eastern District of Kentucky No. 7:18-23-KKC Filed Sept ’5
2018

A-3

Order United States Court of Appeals for the Sixth Circuit Filed Apr 19,
2018

A-4

APPENDIX D
Order Commonwealth of Kentucky Court of Appeals No CA-423-EL April 16
2018

A6

3 Mandate

APPENDIX E
Order Commonwealth of Kentucky Court of Appeals No CA-423-EL
A-8

Filed 3/22/18
APPENDIX F

Order Letcher Circuit Court No. 18-CI-32 Filed March 13, 2018
APPENDIX G
Judgement United States District Court Eastern District of Kentucky No. 7:18-CV-23
Filed Feb’ 26, 2018...

A-15

APPENDIX H
United States District Court Eastern District of Kentucky No. 7:18-CV-23 Order Filed
Feb’ 26, 2018

A-16

APPENDIX I
Supreme Court of Kentucky No. 2018_SC 199-D Order Dated August 8, 2018
A-18

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF MANDAMUS

To Associate Justice Kagan of the United States Supreme Court. Applicant
respectfully prays for a Mandamus from the Judgments below.
OPINIONS BELOW
The date of order sought to be reviewed is entered July 8th, 2021 Commonwealth of
Kentucky Letcher Circuit Court 2018-CL00032 and all orders preceding that.
4 Mandate

Appeal was dismissed by Kentucky Court of Appeals and didjiot address the
merits, Kentucky Supreme Court Denied Discretionary Review on August 8, 2018, I
sought Stay in the Federal Court Eastern District of Kentucky 7:i8-cv-00023 it was
?

immediately dismissed. Appeal was made to the Sixth Circuit 18-5213, all the way
to Justice Kagan and denied. The Sixth Circuit remanded this action back to the U
S District Court -18-cv-00023 and the Sixth Circuit Opinion Order granted this
action Dismissed by the Circuit Court July 8th, 2021.
JURISDICTION
Mandamus is warranted where Jurisdiction of original proceeding is drawn into
question by an unconstitutional tribunal with no cause of action from a non-injured
complainant incumbent.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Kentucky Constitution section 100 is drawn in question as repugnant to equal
protection and due process of law under the U S First Amendment, Fourteenth and
also State of Kentucky Constitution Section 6, Separation of powers and the United
States Supremacy Clause. Setting forth the right... to vote shall not be denied or
abridged... on account of.;. previous condition of servitude: Also Article I, Section
10, Clause 1 No State shall. . . grant any Title of Nobility. The harm DONE WHEN
DEVIATING FROM THE LAW is a systemic enslavement by an unconstitutional
aristocracy that suppresses liberty under a despotic ruling class.

5 Mandate

Broadly construed, this entire case evolved around the issue of
LICENCE, License to the practice of law that does not exist when all are equal or
else by reasoning logically that all have equal license. As fundamental of our
foundation, the Supreme Law conforms with nature, reality and perfection, the
same for all through objective truth. With respect to the practice of law and fair
Elections, the First Amendment of the Constitution of the State of Kentucky begins
with ALL MEN ARE EQUAL. . . Recognizing through my Complaint shows a
fundamental injustice to any reasonable mind but this action has been dismissed,
reviewed, reversed and remanded and dismissed all while ignoring the substantial
issues of law at Bar. My position is that the frivolous attempts to delay justice and
deny reality, nature and self-evident perfection of omniscient truth should be
restrained so as to cease to exclude me and all Persons from these fundamental
human rights by the Judiciary in violation of separation of powers, conflicts of
interest and constitutional checks and balances. I call on you to prohibit further
injustice from repeating by granting the reasonable relief requested. The Judicial
Branch owes a duty of reasonable care to me and all people collectively but has
breached that duty of ordinary care and is the cause of our injuries. Furthermore
there is no "genuine issue as to any material fact" I am entitled a favorable
judgment as a matter of law. Schware v. Board of Examiners, 353 U.S. 238, 239 (a)
A State cannot exclude a person from the practice of law ... a person cannot be
prevented from practicing except for valid reasons. .. Law is not a matter of the
State’s grace.

6 Mandate

STATEMENT OF THE CASE
Law rest in the instincts of all people and it is the cardinal maxim that a statute
contrary to natural right is illegal, null and void as the anchor of
mankind. Appointing counsel of choice pursuant to this election is by the sixth
amendment of the U S Constitution. The Kentucky Judiciary does not address the
substance of this, dismissed as "improperly filed" as if calling my pleading a failure
to submit a perfected Lawyer form, it does not reflect a valid reason or address the
substance. The Kentucky Judiciary cites one precedent which refers to time
constraints not applicable here and perverts the meaning of the citation. Quoting
DUVALL v. GATEWOOD500 S.W.2d 416 (1973) The Appeal to the Kentucky Court
of Appeals should have been according to lawful purpose requiring it be liberally
construed as (MOTION TO SET ASIDE THE ORDER) was filed within five days of
the entry of the Letcher County Circuit Court order included in appendixes hereto. .
(Order Commonwealth of Kentucky Court of Appeals No CA-423-EL April 16, 2018
Appendix D A6) Within the APPEAL is the language specific to set aside the order
of the Letcher Circuit Court and the same as in the CONCLUSION requesting relief
requested as^ Let the emergency stay be granted, the removal of name from ballot
dismissed and such other further relief that is just and proper. The Kentucky Court
of Appeals conversion of time to technicality of form is complete nonsense to any
impartial observer in light of existing precedent law. See Heleringer v. Brown, Ky.,
104 S.W.3d 397 (2003) (holding that election laws should be liberally interpreted so
as to allow the candidate to stand for election). Skaggs v. Fyffe, 266 Ky. 337, 98

7 Mandate

S.W.2d 884 (recognizing the rule of statutory interpretation that laws are to be
liberally construed so as to reach a substantially correct result and the court should,
to every reasonable extent, interpret such provisions as directory rather than
mandatory). In this Commonwealth, there exists a strong public policy in favor of
broad voter participation in elections, thus requiring any doubt in statutory
interpretation to be resolved in favor of allowing the candidacy to continue.
Heleringer v. Brown, 104 S.W.3d at 403. The right of the qualified voter to cast an
effective vote is among our most precious freedoms. Heleringer, 104 S.W.3d at 404405. The effect of the unconstitutional order of the Letcher Circuit Court and the
Kentucky Court of Appeals is in violation of the U.S. Constitution 15th Amendment
Section 1. AND Article I, Section 10, Clause 1.
I invoke my right to have this reviewed in a light most favorable to Applicant
because I have encountered disbelief from brainwashed minds that deny reality
even when presented with overwhelming evidence in support of the cause for
universal human rights.

THERE ARE NO OTHER ADEQUATE MEANS IN THE JUDICIARY TO OBTAIN THE
RELIEF APPLICANT SEEKS.
The effect of The Court of Appeals and the U S District Court for the Eastern
District of Kentucky dismissal sustains an unconstitutional title of nobility on a
fraudulent Corporation of Lawyers, a criminal enterprise with pretended license to
the practice of law and unconstitutional title of Nobility, in violation of equal rights
provision of the State Constitution Section 1. Rights of life, liberty, worship, pursuit
of safety and happiness, free speech . . . All men are, by nature, free and equal, The
8 Mandate

right of freely communicating their thoughts and opinions... Unconstitutional title
of nobility, an abridgment to voting rights, legislative trespass and judicial
overstep, the harm done systemically dehumanizes Applicant as second class
subject citizen who suffers being denied full human rights, a degenerate barbarism
of irreparable harm. The adverse effect of Election fraud practice challenged here
altered Government into regressive despotism that is clearly forbidden and
notwithstanding as law in pursuance of the Constitution, a special interest
deception to deprive from us our inalienable voting rights and fair elections by a
Union, fixed rigged ballot. Kentucky Constitution section 100 abridged the
freedoms of the First Amendment, protected against State action by the Fourteenth
Amendment of the United States Constitution. The State Court had no lawfull
Jurisdiction in the first place regarding these affairs. Commonwealth Attorneys
have taken over the Grand Juries FROM the people, where the people are DENIED
ACCESS to the grand juries when they attempt to present evidence of crimes
committed in the courtrooms by the lawyers and lawyer'judges. The U.S.
Constitution, being the Supreme Fundamental Law, is not and CANNOT be
ambiguous as to be interpreted otherwise, or it would be a worthless piece of paper
and we would have millions of interpretations. All judges and public servants are
SWORN TO SUPPORT the U.S. Constitution.
Kentucky Constitution section 100 is repugnant to the Constitution and
unconstitutional by equal protection due process of law, U S First Amendment,
Fourteenth and Fifteenth U.S.C. and Kentucky's Constitution Section 6, U.S.C.
9 Mandate

Separation of powers and the Supremacy Clause. The right... to vote shall not be
denied or abridged... on account of... previous condition of servitude: Article I,
Section 10, Clause 1 No State shall. . . grant any Title of Nobility.
History shows how Rome outlawed freedom of speech to establish Despotic Slavery.
Reality is perfection where known as a holistic system of life but that is a
completely different world view of your delusions and misconceptions that produced
your prejudice inadequate conception of nature. The Common Good is everything ■
but the repugnant Aristocratic revolutionary lie advanced for unconstitutional
Lawyer rules have overthrown truth by division, calling it Good and Evil,
separating the basic plain people from the whole to enable injustice against one
such as myself so to attack and destroy the unity of multiplicity and create
dysfunctional Barbarity. I present the facts to you uncontroverted in the courts
today but if you fail to see the impartial self-evident reality and direct cause of
systemic failure that renders the whole system no longer sustainable than you must
recuse yourself in the interest of the common good..
The Founding Fathers formed the Constitution on the basis that all are equal
before the law as its premise axiom constitutional foundation eternal verity of
natural law eternal and omnipresent true reality, the Supremacy clause invalidates
unconstitutional practices, customs such as this Aristocratic fraud Nobility are
recognized customary formalities but do not exist in true law or nature, being
repugnant to the Constitution are null and void from the beginning. As to the way
our government is to be run, let me remind, Thomas Jefferson said, in essence,
,10 Mandate

"This proves that plain people, if given the chance, can enact laws and run a
government as well as or better than royalty and the blue bloods of Europe." We
must stop pretending that fallible conflicted lawyers with so called license as
experts of the law are better than our self and can do a better job than we before the
courts. Under the Common Law and the Laws of America, NOWHERE is it
expressly given for hear-say substitutes to have the power or right to form a
Corporation. A Corporation of Lawyers are given birth because of ignorance and are
operating under implied consent and power which they have usurped and otherwise
stolen from me and the people and we must withdraw such consent to this
lawlessness on behalf of the good Citizens in the pursuit of happiness for a perfect
union. The U.S. Constitution GUARANTEES to every state in this union a
REPUBLICAN FORM of government. Any other form of government is
FORBIDDEN. No public officer or branch of government can be limited to a
RULING CLASS of any kind, or the states became ARISTOCRACIES and NOT
republics. Also, the lawyers have made themselves sovereign’s, where many public
offices and branches of government are open to lawyers only, with all other people
limited to only two branches of government and to only certain offices in those two
branches of government, it is an abomination of dehumanization, fraudulently
making all people who are so called non-lawyers into 2nd class subject enslaved
citizens.
When the courts belong to the people, as the United States Constitution
REQUIRES, (Article IV, Section 4, we the people, will NEVER rule against
11 Mandate

themselves.) In unconstitutional Incumbent tribunals, are Unconstitutional ROBES
OF NOBILITY. (Article 1, Section 9 and 10) dispense a perverted ideology, where
the people are terrorized by members of the BLACK ROBE CULT (lawyers and
lawyer judges in the courtrooms). By fraudulently holding that I/we cannot have
equal rights before the courts as the Incumbent who cancels fair elections with the
cooperation of state operatives and express a collective delusional abomination
against the overwhelming majority of people, that crime only produces barbaric
human rights violations to empower a cult in the Judicial Branch that sets into
practice the torture and murder of the common man and that criminal ideology is
unnatural, immoral and unlawful having no legal grounds so that it does not exist
in law. Where no harm is caused liberty is infinite so that such denying of liberty
and collective entitlement to truth and natural perfection self-evident stands on its
own merit. Objectively a treason against the rule of law has been committed
through the judiciary that disqualifies all of the Lawyer Judges who deny the reality.
It is a surprise to me if you do not understand the proof and documentation presented here and I
logically reason that because of a delusional inadequate worldview of incompetent blindness
disqualifies any resemblance of legitimate authority on behalf of the sadistic tyrannical Judiciary
as witnessed by impartial observations of any reasonable mind.
As a recognized expert authority you hold the key of knowledge. Let me remind you that true
law is the same for everyone, monolithic.

12 Mandate

1

The Sixth Circuit repeated Defendant/Respondent’s defenses that I am not now nor ever
have been a licensed Lawyer. Only a corrupt corporation of traitors could support that lie, it has
no basis in reality, nature and equality before the law.
I further was accused and judged prejudicially of being a bad faith litigant, certified by the
United States District Judge who dismissed this complaint and refused to grant relief, with two
disclaimers. First of all the District Court Judge is apparently a habitual Liar, demoralized so
badly, incapable of believing anything I say, wrote to the Sixth Circuit that there is not a single
non-frivolous point to my arguments and for this reason I am a bad faith litigant, a falsity to the
constitutional equal standing required as License to practice in the courts. Secondly it is issued to
the extent applicable as to being address to the District Judge although I clearly did not address
the District of Eastern Kentucky, the heading of the Application to Proceed Forma Paupers
referred to by the Judge is addressed to the Court of Appeals for the 6th Circuit and on these two
preceding points disqualify the prejudice of the United States District Court Judgment by its own
reasoning.

It is extremely important to hold government accountable to basic human rights fundamental
equal treatment under the law. The lie repeated a thousand times becomes a truth to the
corrupt lawyer judiciary, plain people can see should not be permitted.
An extremely dangerous consequence of disregarding the principle that all are equal before the
law gives way for the corrupt illegitimate Aristocracy we have who are entrenched, abuse their
position of power in violation of the Supreme Law and the resulting harm caused is so vast that
public opinion would certainly vote you out of office if we had fair elections. We the people and
myself individually as one of many inadvisable. It is imperative to apply the law equally to all

13 Mandate

individuals, regardless of their status. No differences should be made, with regard to the law, for
political figures, diplomats, law enforcement, legal professionals, leading businesses, or
otherwise influential people.
All people must be equally protected by the law. A systematic rule of law that
observes due process to provide equal justice, and requires equal
protection ensuring that no individual nor group of individuals be privileged over
others by the law arises from philosophical questions concerning equality, fairness
and justice. Equality before the law is incompatible with legal slavery. All
I

individuals must be treated in exactly the same manner by the law, while all
persons should be subject to the same laws. ... All are equal before the law and are
entitled without any discrimination to equal protection.

The common person is the universe, one of many and a unity of diversity, one song
in the harmonic spectrum but to call me a bad faith litigant is to isolate myself from
all others and deprive the majority in the same manner because we have eternal
verities.

The unlawful Cult of the Judiciary is a wild gang of hungry wolves feeding on my
flesh. The Bar Association practices of elitism as a corrupt corporation to violate
fundamental human rights must be abolished, along with its hateful Barbarity and
violence against the common person who I am. Demand is made to cease the

14 Mandate

unconstitutional custom of denying full human rights entitled by birthright and to
stop perpetuating criminal conduct and habitual continuation of a cycle set in
motion that ripples through humanity as a primary cause of the most terrible civil
rights violation crimes including war. A corrupt corporation of Lawyers upholding
these kind of atrocities through an unconstitutional lawyer system cannot reach
parity with a true lawful person, necessitating corrective action to restore preserve
and reclaim liberty and justice

. REASONS FOR GRANTING

MANDAMUS
On the merits through epistemological neutrality for the important public
interest because irreparable harm will result from the inaction. The writ will be in aid
of the Court's appellate jurisdiction that exceptional circumstances warrant the exercise
of the Court's discretionary powers that adequate relief cannot be obtained in any other
form from any other court.

CONCLUSION
For these reasons as a "Next Friend" Applicant respectfully request that this
Court grant this Mandate to avert immediate direct and substantial injury as the
result of its enforcement. I have no conflict of interest here. Kentucky is a Right'to-

15 Mandate

Work state. Certainly the practice of law is not a matter of the States grace. Let the
stay issue.

Wherefore Plaintiff seeks the following relief;

Restorative justice for the injury requires removing the Incumbent from official
duties for the breach; furthermore Appellant seeks reimbursements to grant court
cost in excess of six thousand five hundred dollars, excluding lawyer fees.

Let it be resolved- No candidate who has conspired with others to violate checks
and balances, equal protection and conflicts of interest in elections shall be
considered a bona fide candidate in the context of KRS 118.176. AND No candidate
who has conspired with others to violate the fourteenth amendment constitutional
rights to speech, association, and due process can be considered a bona fide
candidate in the context of KRS 118.176.

1.) Let the Kentucky State office of the Attorney general be notified and all
concerned parties and the Board of Elections that the Incumbent is dismissed as the
Commonwealth Attorney in Letcher County Kentucky beginning at once. Applicant
respectfully asks you to grant the relief requested and such other further relief as is
lawful and just.

For these reasons Applicant respectfully asks the United States Supreme Court
to review the issues, to bring Mandate against the unconstitutional abridgement of

16 Mandate

fair Elections and grant Judgment in his favor for the relief requested as lawful and
just.

Respectfully submitted 08/17/2021

Ellis Keyes, Propria Persona P 0 Box 1073, Whitesburg Kentucky 41858-1073
elliskeves@vahoo.com

(606) 821-9815
No.
IN THE

SUPREME COURT OF THE UNITED STATES
Ellis Keyes, Applicant, v. EDISON BANKS, et al, Respondents
PROOF OF SERVICE
I, Ellis Keyes, declare that on this date, as required by Supreme Court Rule 29 I
have served the enclosed PETITION FOR WRIT OF MANDAMUS
on each party or that parties counsel and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid
, mailed this 17th day of August, 2021,the names of those served are as follows^
Edison Banks C/O Adam P. Collins, ESQ. , Collins & Collins& Conley P. S. C.,
P.O.BOX 727, Hindman, Kentucky 41822 ,‘and State of Kentucky Office of the
Attorney General Capitol Suite 118, 700 Capitol Avenue, Frankfort, KY 406013449. cc Clerk, United States Supreme Court 1 First St NE, Washington, DC
20543
Respectfully Submitted.
Ellis Keyes, Propria Persona

(606) 821-9815

P O Box 1073, Whitesburg Kentucky 41858-1073
17 Mandate

